                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Corrective Action Plan
                    Needed in Order to
                    Fully Comply With the
                    Improper Payments
                    Elimination and Recovery Act
                    Report No. 13-P-0175                    March 11, 2013




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Heriberto Ibarra
                                                   Janet Kasper
                                                   Doug LaTessa
                                                   Nicole Pilate
                                                   Mary Anne Strasser




Abbreviations

AFR          Agency Financial Report
CFR          Code of Federal Regulations
CWSRF        Clean Water State Revolving Fund
DWSRF        Drinking Water State Revolving Fund
EPA          U.S. Environmental Protection Agency
FY           Fiscal Year
IGMS         Integrated Grants Management System
IPERA        Improper Payments Elimination and Recovery Act of 2010
NPTCD        National Policy, Training and Compliance Division
OCFO         Office of the Chief Financial Officer
OGC          Office of General Counsel
OGD          Office of Grants and Debarment
OIG          Office of Inspector General
OMB          Office of Management and Budget
OW           Office of Water
PERs         Program Evaluation Reports
SRF          State Revolving Fund




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                         13-P-0175
                                                                                                   March 11, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Corrective Action Plan Needed in Order to
The Office of Management            Fully Comply With the Improper Payments
and Budget (OMB) issued
governmentwide guidance for
                                    Elimination and Recovery Act
implementation of the
Improper Payments                    What We Found
Elimination and Recovery Act
of 2010 (IPERA) on April 14,        EPA did not comply with the IPERA because the fiscal year (FY) 2012 Agency
2011. The guidance                  Financial Report (AFR) did not include all required elements of a corrective
described requirements for          action plan. EPA did not include, among other things, planned and actual
agencies’ improper payments         completion dates for corrective actions and improper payment reduction
reporting and inspectors            targets.
general responsibilities to
review agency reporting. Our        EPA also misstated improper payments for state revolving funds (SRFs),
objective was to determine          grants, and contracts and commodities payment streams in the FY 2012 AFR.
whether the U.S.                    Specifically:
Environmental Protection
Agency (EPA) was in                  For the SRF programs, EPA significantly misstated improper payments
compliance with IPERA.                because Office of Water staff do not rely on Program Evaluation Reports
                                      when reporting improper payments, and because regional office staff did
This report addresses                 not always correctly calculate the amount of the improper payment.
the following EPA Goal or            For the grants programs, $39,694 was not reported as improper payments
Cross-Cutting Strategy:               due to weaknesses in the reporting process for improper payments.
                                     EPA did not include discounts not taken for contracts and commodities
  Strengthening EPA’s                because EPA disagrees that these should be reported as improper
   workforce and capabilities.        payments.

                                     Recommendations and Planned Agency Corrective Actions

                                    We recommend that the Chief Financial Officer submit a plan to Congress
                                    describing actions the Agency will take to become compliant with IPERA,
                                    develop specific guidance to define “applicable discounts” for IPERA reporting
                                    purposes, and include any payment that does not account for credit for an
                                    applicable discount as an improper payment in EPA’s FY 2013 AFR. We
                                    recommend that the Assistant Administrator, Office of Water, identify improper
                                    payments using the Program Evaluation Reports and transaction testing
                                    worksheets. Finally, we recommend that the Assistant Administrator, Office of
                                    Administration and Resources Management, determine why errors occurred,
For further information, contact
                                    implement actions to ensure accurate reporting, and revise the interim
our Office of Congressional and
Public Affairs at (202) 566-2391.   guidance for IPERA. The Agency concurred with all of the recommendations
                                    and provided its intended corrective actions and estimated completion dates.
The full report is at:
www.epa.gov/oig/reports/2013/
20130311-13-P-0175.pdf
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460



                                                                             THE INSPECTOR GENERAL




                                         March 11, 2013

MEMORANDUM


SUBJECT:	 Corrective Action Plan Needed in Order to Fully Comply With the
          Improper Payments Elimination and Recovery Act
          Report No. 13-P-0175


FROM:          Arthur A. Elkins Jr.


TO:	           Barbara J. Bennett, Chief Financial Officer

               Craig E. Hooks, Assistant Administrator
               Office of Administration and Resources Management

               Nancy K. Stoner, Acting Assistant Administrator 

               Office of Water 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System. We have no objections to the further release of this report to the public. This report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
assistant inspector general for the Office of Audit, at (202) 566-0899 or heist.melissa@epa.gov;
or Janet Kasper, director for Contracts and Assistance Agreements Audits, at 312-886-3059 or
kasper.janet@epa.gov.
Corrective Action Plan Needed in Order to Fully Comply                                                                      13-P-0175
With the Improper Payments Elimination and Recovery Act




                                  Table of Contents 

Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1        

                Background .................................................................................................       1        

                Scope and Methodology ..............................................................................               2        


   2    EPA Is Not in Compliance with IPERA .............................................................                          4


                IPERA Requires Corrective Action Plans ....................................................                        4

                EPA Did Not Publish a Corrective Action Plan ............................................                          5

                Recommendation ........................................................................................            5

                Agency Comments and OIG Evaluation ......................................................                          6


   3    EPA Significantly Misstated Improper Payments for SRFs ...........................                                         7


                Definition of Improper Payment                                                                                     7

                Inaccuracies in Agency Financial Report                                                                            8   

                EPA Staff Need to Rely on Program Evaluation Reports                                                               9   

                Reliability of SRF Information in the AFR Is Questionable                                                         10 

                Recommendations                                                                                                   10 

                Agency Comments and OIG Evaluation ......................................................                         10 


   4    EPA Needs to Further Improve Grant Improper Payment Reporting                                                             11


                Interim Guidance for Grant Improper Payment Reporting ...........................                                 11 

                Some Grant Improper Payments Not Reported                                                                         11 

                Further Improvement Needed to Capture Grant Improper Payments                                                     12 

                Recommendation                                                                                                    13 

                Agency Comments and OIG Evaluation ......................................................                         13 


   5    Improper Payments Reported Did Not Include Discounts Not Taken                                                            14    


                EPA Disagreed With Recommendation in Prior Report                                                                 14 

                Reporting Discounts Not Taken as Improper Payments                                                                14 

                Office of General Counsel Opinion                                                                                 16 

                Recommendations                                                                                                   17 

                Agency Comments and OIG Evaluation ......................................................                         17 


   Status of Recommendations and Potential Monetary Benefits..............................                                        18




                                                           -continued-
Corrective Action Plan Needed in Order to Fully Comply    13-P-0175
With the Improper Payments Elimination and Recovery Act



Appendices
   A    Agency Response to Draft Report                       19      


   B    Distribution                                          22

                                          Chapter 1 

                                          Introduction
Purpose
                The Office of Management and Budget (OMB) issued governmentwide
                guidance for implementation of the Improper Payments Elimination and
                Recovery Act of 2010 (IPERA) on April 14, 2011.1 This guidance describes
                requirements for agencies’ improper payments reporting, and inspectors general
                responsibilities to review agency reporting. Our objective was to determine
                whether the U.S. Environmental Protection Agency (EPA) is in compliance with
                IPERA.

Background
                IPERA requires that each agency periodically review and identify all programs
                and activities that may be susceptible to significant improper payments.2 The act
                also significantly increased requirements for payment recapture efforts by
                expanding the types of payments that must be reviewed and by lowering the
                threshold of annual outlays that requires agencies to conduct payment recapture
                audit programs. Agencies are to report on improper payments:

                        Voluntarily returned by contractors. 

                        Used to offset future payments. 

                        Identified and returned to the agency through Office of Inspector General 

                         (OIG) efforts, such as audits, reviews, or tips from the public.
                        Identified and recovered through management post-payment reviews and
                         close-outs.3

                Annually, inspectors general are required to determine whether agencies are in
                compliance with IPERA. Compliance means that the agency has:

                        Published an Agency Financial Report (AFR) for the most recent fiscal
                         year and posted it on the agency website.
                        Conducted a program-specific risk assessment (if required).
                        Published improper payment estimates for all programs and activities
                         identified as susceptible to significant improper payments (if required).
1
  OMB Memorandum M-11-16, Issuance of Revised Parts I and II to Appendix C of OMB Circular A-123.
2
  OMB defines “significant” as gross annual improper payments in the program exceeding (1) both 2.5 percent of
program outlays and $10 million of all program or activity payments made during the fiscal year reported, or
(2) $100 million (regardless of the improper payment percentage of total program outlays). 

3
  OMB Memorandum M-11-04, Increasing Efforts to Recapture Improper Payments by Intensifying and Expanding

Payment Recapture Audits. 


13-P-0175                                                                                                    1
                        Published programmatic corrective action plans (if required).
                        Published and met annual reduction targets for each program assessed to
                         be at risk and measured for improper payments.
                      	 Reported a gross improper payment rate of less than 10 percent for each
                         program and activity for which an improper payment estimate was
                         obtained and published in the AFR.
                      	 Reported information on efforts to recapture improper payments.

                  An agency is not compliant if it does not meet one or more of these requirements.
                  Inspectors general should evaluate (1) the accuracy and completeness of agency
                  reporting, and (2) agency performance in reducing and recapturing improper
                  payments.

Scope and Methodology
                  We conducted this audit from November 2012 to February 2013 in accordance
                  with generally accepted government auditing standards, issued by the Comptroller
                  General of the United States. Those standards require that we plan and perform
                  the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
                  for our findings and conclusions based on our audit objective. We believe that the
                  evidence obtained provides a reasonable basis for our findings and conclusions
                  based on our audit objective.

                  To determine whether EPA is in compliance with IPERA, we reviewed EPA’s
                  fiscal year (FY) 2012 AFR and accompanying materials. We reviewed prior OIG
                  internal control review workpapers for each payment stream. We interviewed
                  Agency staff at EPA headquarters from the Office of the Chief Financial Officer
                  (OCFO), the Office of Grants and Debarment (OGD), and the Office of Water
                  (OW). We also interviewed OCFO staff from the Research Triangle Park Finance
                  Center.

                  We gained an understanding of the processes, procedures, and controls used for
                  IPERA reporting across the three payment streams – state revolving fund (SRF),
                  grants, and commodities and contracts.4 We traced judgmental samples of reported
                  improper payments from each payment stream back to source documentation to test
                  the accuracy of improper payments reporting in EPA’s FY 2012 AFR.

                      	 For the Clean Water SRF (CWSRF), we judgmentally selected the largest
                           three reported improper payment amounts, which resulted in testing
                           97.6 percent of the $12.8 million reported as CWSRF improper payments.
                           We also selected the three largest amounts of Drinking Water SRF
                           (DWSRF) improper payments reported, which resulted in our testing
                           97.0 percent of the $1.1 million of improper payments.
4
  EPA, with OMB’s approval, uses a different 12-month period for each payment stream reported; SRFs are based
on state fiscal years, grants are based on the prior calendar year (2011), and contracts and commodities are based on
the current FY (2012).

13-P-0175                                                                                                           2
               	 We judgmentally selected at least one grant from each type of grant
                  review (A-133, desk review, onsite review, or administrative enforcement)
                  from the EPA’s reported grant improper payments for calendar year 2011.
                  The sample accounts for $383,726 of unallowed costs identified as
                  improper payments, or 63.0 percent of EPA’s reported total unallowed
                  costs.
               	 We selected all contract improper payments greater than $2,000, resulting
                  in a sample size of 14 payments totaling $947,937, representing
                  99.4 percent of contract improper payments.
               	 For commodities, we selected the first improper payment for each month
                  and continued to rotate through each month, selecting the second, third,
                  etc., until our sample size equaled at least 50 percent of the gross amount
                  of reported improper payments. The resulting sample size was
                  24 improper payments totaling $187,899, or 52.0 percent of the total
                  reported improper payments for commodities.

            In addition to selecting a sample of transactions reported as improper payments,
            we also looked for transactions that EPA did not report as improper payments. For
            example, we reviewed program evaluation reports (PERs) for states where EPA
            did not report improper payments, to verify that improper payments were not
            identified. We also reviewed grant accounts receivable for receivables that were
            the result of improper payments.

            We used information from several EPA data systems during our work, including:

                  Integrated Grants Management System (IGMS). 

                  Contract Payment System. 

                  Small Purchase Information Tracking System. 

                  Compass Data Warehouse. 


            We verified the information in the systems to source documentation and
            concluded that the information provides a reasonable basis for our findings and
            conclusions.

            Prior Audit Coverage

            During the current audit, we followed up on Agency corrective actions from the
            EPA OIG’s Report No. 12-P-0311, EPA Can Improve Its Improper Payments
            Reporting, issued March 1, 2012. We found all but one action had been taken.
            The corrective action not taken is discussed in chapter 5.




13-P-0175                                                                                     3
                                 Chapter 2

            EPA Is Not in Compliance With IPERA

            EPA is not in compliance with IPERA because EPA did not publish a corrective
            action plan as required by the act. IPERA requires a plan to accompany an
            agency’s report on improper payments, if the improper payments exceed
            $10 million. EPA reported over $13.38 million in improper payments for the
            SRF program. EPA’s FY 2012 AFR did include a corrective action section that
            included some, but not all, of the required elements of a plan. According to
            OCFO staff, a more detailed corrective action plan was not published. EPA staff
            indicated that their understanding was that the plan was not required until the
            FY 2013 AFR. As a result, EPA is not in compliance with IPERA and risks
            delaying necessary corrective actions.

IPERA Requires Corrective Action Plans
            IPERA Section 2(c) requires corrective action plans for any agency program
            with estimated improper payments that exceed $10 million, and also requires the
            plan to be submitted with the agency’s estimate of improper payments. IPERA
            requires the plan to include the following:

               	 A description of the causes of the improper payments, actions planned or
                  taken to correct those causes, and the planned or actual completion date
                  of the actions.
               	 A statement of whether the agency has what is needed with respect to
                  internal controls, human capital, and information systems and other
                  infrastructure in order to reduce improper payments.
               	 If the agency does not have sufficient resources to establish and maintain
                  effective internal controls, a description of the resources the agency has
                  requested in its budget submission to establish and maintain such internal
                  controls.
               	 Program-specific improper payment reduction targets that have been
                  approved by the OMB director.
               	 A description of the steps the agency has taken to ensure agency
                  managers, programs, and, where appropriate, states and localities are held
                  accountable with performance appraisal criteria for meeting applicable
                  improper payment reduction targets and establishing and maintaining
                  sufficient internal controls.




13-P-0175                                                                                      4
            IPERA Section 3(c) states that if the inspector general determines an agency is
            not in compliance with IPERA, the agency must submit a plan to Congress that
            describes the following:

                 Measurable milestones to be accomplished in order to achieve compliance
                  for each program or activity.
                The designation of a senior agency official who shall be accountable for
                  the progress of the agency coming into compliance.
               	 The establishment of an accountability mechanism, such as a performance
                  agreement, with appropriate incentives and consequences tied to the
                  success of the senior agency official leading agency efforts to achieve
                  compliance.

EPA Did Not Publish a Corrective Action Plan
            EPA did not publish a corrective action plan. EPA reported $13.38 million in
            improper payments for the SRF program. FY 2012 was the first year that the
            SRF program exceeded the threshold for significant improper payments as
            established by IPERA and triggered the requirement for a corrective action plan.
            EPA’s FY 2012 AFR did contain a corrective action section, but Agency staff
            informed us this was a required section of the AFR and not synonymous with a
            corrective action plan. The corrective action section of the AFR did describe the
            causes of the improper payments and actions taken to correct the improper
            payments, which is one of the required elements of a corrective action plan.
            However, the AFR did not include the rest of the required elements.

            OCFO staff did not publish a plan because they concluded the plan was not due
            until FY 2013 in order to provide ample time for the Agency to develop the
            plan. The AFR stated that the Agency will work with OMB during FY 2013 to
            refine its methodology for sampling and estimating improper payments in the
            SRFs.

            EPA’s AFR did not include a corrective action plan as required by IPERA
            Section 2(c). In addition to being required by law, the corrective action plan
            could assist EPA in identifying the actions needed to reduce improper payments
            in FY 2013.

Recommendation
            We recommend that the Chief Financial Officer:

               1.	 Within 90 days prepare a report for the Administrator to submit to
                   Congress and include the elements described in IPERA Section 3(c) in the
                   report.




13-P-0175                                                                                       5
Agency Comments and OIG Evaluation
            EPA agreed with the recommendation and within 90 days of the determination of
            noncompliance, the OCFO will prepare a report for the Administrator to submit to
            Congress. The report will include elements described in IPERA Section 3(c). EPA
            added that it viewed the issue of noncompliance as a technical interpretation of
            IPERA. The OIG believes the Agency’s action, when implemented, should address
            the recommendation.




13-P-0175                                                                                 6
                                  Chapter 3

                    EPA Significantly Misstated 

                   Improper Payments for SRFs 

            EPA significantly misstated the value of improper payments for the CWSRF and
            DWSRF. An improper payment is a payment that should not have been made or
            that was made in an incorrect amount. Based on our sample of six CWSRF PERs
            and seven DWSRF PERs, we found table 2 (Payment Recapture Audit Reporting)
            and table 6 (Overpayments Recaptured Outside of Payment Recapture Audits) of
            EPA’s FY 2012 AFR to be overstated by $3.98 million and $3.24 million,
            respectively. EPA misstated the value of the improper payments for several
            reasons, but primarily because OW staff did not rely on PERs prepared by
            regional offices when reporting improper payments, and because regional office
            staff did not always correctly calculate the amount of the improper payment.
            Because of the frequency and large dollar value of the errors, we have little
            confidence in the reliability of the information EPA reported for the SRF
            improper payments in the FY 2012 AFR.

Definition of Improper Payment
            The definition of an improper payment is determined by both IPERA and OMB
            guidance. IPERA defines an improper payment as a payment that should not have
            been made or that was made in an incorrect amount (including overpayments and
            underpayments) under statutory, contractual, administrative, or other legally
            applicable requirements; and includes any payment to an ineligible recipient, any
            payment for an ineligible good or service, any duplicate payment, any payment
            for a good or service not received (except for such payments where authorized by
            law), and any payment that does not account for credit for applicable discounts.

            OMB guidance M-11-16 further defines an improper payment as any payment
            that was made to an ineligible recipient or for an ineligible good or service, or
            payments for goods or services not received. In addition, when an agency’s
            review is unable to discern whether a payment was proper as a result of
            insufficient or lack of documentation, this payment must also be considered an
            improper payment. OMB guidance M-11-16 also states that when calculating an
            improper payment, only the amount paid improperly should be used.




13-P-0175                                                                                       7
Inaccuracies in Agency Financial Report
            EPA did not accurately report improper payments for the SRFs. EPA reported
            improper payments of $13,382,373 in table 2 (Payment Recapture Audit
            Reporting) of the FY 2012 AFR. However, we found several errors resulting in an
            overstatement of $3.98 million. In comparing a sample of 13 SRF PERs to
            supporting schedules EPA provided, we found errors (both overstatements and
            understatements) as described in our table 1.

            Table 1: Adjustments to improper payments reported in table 2 of the FY 2012 AFR
                                           Description                                     Amount
             Massachusetts (CWSRF) – Improper payments identified by the state          $(7,615,773)*
             that should have been included in table 6 instead of table 2. In addition,
             EPA reported the total cash draws rather than the overstatement.
             Vermont (DWSRF) – EPA should not have included the amount as an                (150,346)
             improper payment because invoices supported the cash draw, as
             described in the PER.
             Nebraska (DWSRF and CWSRF) – Improper payments identified in the               2,957,900
             PER that were not included in table 2.
             Puerto Rico (CWSRF) – Improper payments identified in the PER that               586,284
             were not included in table 2.
             Louisiana (DWSRF) – Checklists indicated that invoices were missing              237,287
             or did not support the cash draws, but these payments were not
             included in table 2.
             AFR table 2 adjustments based on OIG sample                                 ($3,984,648)
            Source: OIG analysis of a sample of documents provided by EPA.
            *Amounts in parentheses represent overstatements.

            In the FY 2012 AFR, improper payments identified outside of payment recapture
            audits were reported in table 6 (Overpayments Recaptured Outside of Payment
            Recapture Audits). EPA reported $5,413,070 of improper payments in table 6 of
            the FY 2012 AFR, which included improper payments that are self-reported and
            identified by audits other than payment recapture audits (see our table 2).

            Prior to EPA conducting the annual PER for Massachusetts, state officials
            informed EPA that the state had made procedural errors over a 3-to-4-month
            period when processing cash draws from both the CWSRF and DWSRF. These
            errors resulted in improper payments. EPA properly included the DWSRF
            improper payment in table 6 of the AFR, but used the total amount of the cash
            draws rather than the overpayment. For the CWSRF, EPA incorrectly included
            the improper payment in table 2 of the FY 2012 AFR, and also calculated the
            improper payment as the total cash draw rather than the overpayment.




13-P-0175                                                                                          8
            Table 2: Adjustments to improper payments reported in Table 6 of the FY 2012 AFR
                                            Description                               Amount
             Massachusetts (DWSRF) – Improper payments were overstated as          $(4,267,333)*
             EPA reported the entire cash draw as the improper payment, rather
             than the overpayment.
             Massachusetts (CWSRF) – Improper payments were reported in                1,025,875
             table 2 rather than table 6, and EPA reported the entire cash draw as
             the improper payment rather than the overpayment.
             AFR table 6 adjustments based on OIG sample                            ($3,241,458)
            Source: OIG analysis of a sample of documents provided by EPA.
            *Amounts in parentheses represent overstatements.


EPA Staff Need to Rely on Program Evaluation Reports
            The errors in the FY 2012 AFR occurred for several reasons, but primarily
            because EPA OW staff did not rely on the PERs prepared by regional offices.
            EPA regional offices conduct annual reviews of each state’s SRFs. During these
            reviews, regional offices select a sample of cash draws to test for improper
            payments. The results of the annual reviews and tests for improper payments are
            summarized in the PERs. In addition, EPA regional staff complete a transaction
            testing worksheet to summarize the results of the transaction tests. OW staff relies
            on the transaction testing worksheet and not the PERs when reporting improper
            payments for inclusion in the AFR. However, the PERs may contain details and
            information not included in the worksheets.

            While we found problems with how EPA calculated the amount of the improper
            payment, EPA has taken action to address the issue. EPA regional staff did not
            always properly calculate the amount of the improper payment and may not
            understand what comprises an improper payment, as we found some worksheets
            to be incomplete. For Massachusetts, EPA regional staff calculated the improper
            payment as the total of the cash draws, rather than the overpayments associated
            with those cash draws. For Louisiana, the notes on one transaction testing
            worksheet indicated that the invoiced costs did not justify draw amounts, but there
            was no indication whether this was considered an improper payment. EPA’s
            Standard Operating Procedure for Transaction Testing does not provide a
            complete definition of an improper payment or provide complete details on how
            improper payments should be calculated. EPA updated the standard operating
            procedure to include IPERA and OMB’s definition of an improper payment, and
            instructions on how to calculate the improper payment based on the finding
            outlines we provided the Agency for review in December 2012. This revision,
            along with the training OW has planned, should clarify when a payment should be
            considered improper and how to calculate the value of the improper payment.

            EPA’s OCFO staff stated that they receive much of the improper payment data
            from OW in early October and do not have time to conduct a thorough analysis.
            However, SRF improper payments are based on the state’s preceding FY ending
            June 30, meaning OW has the data several months before it is submitted to


13-P-0175                                                                                      9
            OCFO. If OW provided the information earlier, OCFO would have more time to
            review the data for anomalies.

Reliability of SRF Information in the AFR Is Questionable
            We reviewed 6 of 51 state CWSRF PERs (50 states plus Puerto Rico) and
            associated worksheets and found errors associated with either the value of the
            improper payments or the value of the disbursements tested in 5 of those PERs.
            We reviewed 7 of 51 DWSRF PERs and associated worksheets and found similar
            errors in 5 of those PERs. Because of the frequency and large dollar value of the
            errors, we have little confidence in the reliability of the information EPA reported
            for SRF improper payments in the FY 2012 AFR.

Recommendations
            We recommend that the Assistant Administrator, Office of Water:

               2.	 Require staff to use the PERs, in addition to the transaction testing
                   worksheets, to identify improper payments.

               3.	 Submit SRF improper payment totals to OCFO earlier in the reporting
                   cycle to allow OCFO the opportunity to perform quality checks on the
                   data.

Agency Comments and OIG Evaluation
            EPA agreed with the recommendations. OW staff will use the PERs, in addition to
            the transaction testing worksheets, to identify improper payments reflected in the
            final AFR. OW will also provide OCFO with the improper payments information
            OCFO needs to report in the final AFR earlier in the reporting cycle. The OIG
            believes the Agency’s actions, when implemented, should address the
            recommendations.




13-P-0175                                                                                     10
                                 Chapter 4 

                EPA Needs to Further Improve 

              Grant Improper Payment Reporting 

            EPA did not include $39,694 in grant improper payments when collecting the
            information from its IGMS Compliance and Recipient Activity database
            (compliance database) for the FY 2012 AFR. The OGD’s interim guidance for
            IPERA says the grants management offices and the National Policy, Training and
            Compliance Division (NPTCD) share responsibilities for ensuring that the
            compliance database is accurate and complete to report improper payments. EPA
            did not always capture improper payments and recoveries in its compliance
            database. As a result, EPA understated grant improper payments and payment
            recoveries in the FY 2012 AFR.

Interim Guidance for Grant Improper Payment Reporting
            In response to our report on the FY 2011 AFR, OGD issued interim guidance on
            April 23, 2012. The guidance states:

               	 Grants management offices are to ensure that the final improper payment
                  amounts and grant closed dates are recorded in the compliance database
                  once billing has been issued by the Las Vegas Finance Center and the
                  grants office has received a copy of the bill.
               	 The NPTCD is responsible for checking the compliance database for
                  accuracy and completeness to accurately report improper payments. The
                  NPTCD also verifies that questioned and disallowed costs recorded in the
                  compliance database are consistent with the actual compliance report and
                  written decisions.

Some Grant Improper Payments Not Reported

            Some improper payments discovered in a single audit and a programmatic review
            were not reported in EPA’s FY 2012 AFR. EPA reported $610,131 of actual grant
            improper payments and the recovery of $465,462. We found an additional
            $39,694 in grant improper payments that EPA should have reported as improper
            and recaptured (see table 3). According to IPERA, the head of the Agency shall
            report on all actions to detect and recover improper payments, including the
            amounts that are recovered, outstanding, and determined to be not collectible.
            However, EPA did not report $9,694 of grant improper payments detected during
            a single audit review and $30,000 detected during a programmatic review. EPA
            should have reported the improper payments since both reviews were closed and
            all the funds were recovered.


13-P-0175                                                                               11
            Table 3: Adjustments to Grant Improper Payments and Recoveries in EPA’s FY 2012 AFR

                                                         Improper            Not reported
                   Grantee           Type of review      payment        Improper      Payment
                                                      reported in AFR   payment      recapture
              Snoqualmie Tribe,
                                  Single audit                 $8,322      $9,694        $9,694
                 Washington
                Apache Tribe,    Programmatic
                                                                    0      30,000        30,000
                 Oklahoma            review
             Total improper payment and
                                                                          $39,694       $39,694
             payment recapture adjustments
            Source: OIG analysis of EPA data.


Further Improvement Needed to Capture Grant Improper Payments

            While OGD has issued guidance on recording improper payments, further
            improvements should be made. EPA only reports grant unallowed costs recorded
            in its compliance database as improper payments. Accurate reporting of improper
            payments is dependent upon relevant information being recorded in the
            compliance database.

                	 For the Snoqualmie tribe single audit, NPTCD stated that Region 10
                   recorded and reported final unallowed costs of $8,322 in the database and
                   did not report $9,694 as unallowed. Therefore, NPTCD only reported
                   $8,322 of improper payments. However, EPA’s Region 10 concluded in
                   its audit close-out letter that $9,694 of questioned travel cost was
                   unsupported and recovered. OGD later confirmed the region should have
                   included $9,694 in the database as an unallowed cost.

                	 The results of the programmatic review for the Apache tribe of Oklahoma
                   were not recorded in the database; therefore, the improper payment was
                   not reported. EPA’s NPTCD staff stated that its compliance database is
                   not structured to allow programmatic staff to record unallowable costs
                   detected during programmatic monitoring reviews. NPTCD staff
                   explained that when issues involving grant finances arise, these issues
                   should be referred to the appropriate grant office and award official for
                   action. However, in this case, the award official did not record an
                   administrative enforcement action in the compliance database.

            We found that EPA did not report $39,694 of improper payments and recoveries.
            As a result, grant improper payments were understated by 7 percent and recovered
            payments were understated by 9 percent. If EPA does not implement corrective
            actions and modify its guidance, improper payments detected during reviews may
            not be captured for reporting purposes, which may result in reporting errors.




13-P-0175                                                                                         12
Recommendation
            We recommend that the Assistant Administrator, Office of Administration and
            Resources Management:

               4. 	 Determine why the errors noted occurred, implement actions to ensure
                    accurate reporting in the Integrated Grants Management System
                    Compliance and Recipient Activity database, and revise the OGD’s
                    interim guidance for IPERA to reflect these changes.

Agency Comments and OIG Evaluation
            EPA agreed with the recommendation. OGD agreed that some improper payments
            were not accurately recorded in the IGMS Compliance and Recipient Activity
            database and has determined why these errors occurred. OGD will revise IPERA
            guidance to implement corrective actions, as based on the errors that occurred.
            The OIG believes the Agency’s actions when implemented should address the
            recommendation.




13-P-0175                                                                                  13
                                           Chapter 5

                   Improper Payments Reported Did Not 

                       Include Discounts Not Taken

                   EPA did not accurately report discounts not taken in the FY 2012 AFR. The
                   IPERA defines improper payments to include “any payment that does not account
                   for credit for applicable discounts.” EPA reported in the AFR that, “In FY 2012,
                   the Agency claimed 56 percent of all offered discounts, and the remaining
                   $122,000 in missed discounts was determined not to be improper payments.” As
                   stated in our report on the FY 2011 AFR, the OIG believes that based on the
                   definition of improper payment in IPERA, applicable discounts not taken should
                   be reported as improper payments. As a result, EPA underreported improper
                   payments in the contracts and commodities payment streams.

EPA Disagreed With Recommendation in Prior Report
                   EPA did not report discounts not taken as improper payments in its FY 2011
                   AFR. In our report on improper payments for FY 2011, we recommended that
                   OCFO report discounts not taken as improper payments under IPERA starting
                   with the FY 2012 AFR, unless it receives clarification from OMB stating
                   otherwise. 5 EPA disagreed with the recommendation and stated that it believed
                   there were valid reasons why certain discounts cannot be taken and should not be
                   reported as improper payments. Agency officials stated that they may not be able
                   to take a discount for a myriad of reasons, such as:

                          Insufficient time to review invoices. 

                          Percentage rate offered not sufficient to generate a cost-effective discount. 

                          Project officer approval not available. 


                   In responding to the final report, EPA continued to disagree with the OIG. EPA
                   management sought guidance from OMB but did not receive any. In our final
                   response to EPA we continued to disagree with the Agency’s position but we did
                   not believe that the report warranted elevation to the Audit Resolution Board, due
                   to the low-dollar value of items not reported for FY 2011.

Reporting Discounts Not Taken as Improper Payments
                   In the FY 2012 AFR, EPA stated that it would report discounts as improper
                   payments, “…if the wrong percentage discount were taken or if a discount were
                   taken beyond the specified discount period.” This definition severely limits when
                   a discount not taken would be considered an improper payment. EPA provided

5
    OIG report EPA Can Improve Its Improper Payments Reporting, Report No. 12-P-0311 (March 1, 2012)

13-P-0175                                                                                              14
                the following examples in the AFR to explain why it does not report discounts not
                taken as improper payments.

                         There are certain situations beyond the Agency’s control that may
                         prevent EPA from taking a discount. Since these situations are
                         beyond the Agency’s control, EPA does not consider them to be
                         improper payments. For example, the late receipt of an invoice
                         from the vendor could prevent the Agency from claiming the
                         discount within the specified discount period. Similarly, project
                         officers are required to conduct their due diligence by thoroughly
                         reviewing invoices and are sometimes unable to approve an
                         invoice before the discount period expires.

                While late submission of invoices by the vendor may not be within the EPA’s
                control, project officer review is within the Agency’s control. While IPERA
                defines improper payment as “any payment that does not account for credit for
                applicable discounts,” it does not distinguish whether the reason for not taking the
                discount is within an agency’s control. As a result, the OIG continues to believe
                that applicable discounts not taken should be reported as improper payments.

                Discounts Not Taken Because of Transmission Problems

                Our current review found an example of a situation that supports the OIG’s
                position that discounts not taken should be reported as improper payments. We
                identified five payments totaling $1,370, where discounts were not taken and
                were not reported as improper payments because the Agency believed that it paid
                the right amount to the right vendor (see table 4).

Table 4: Missed opportunities for discounts to be taken
                Discount
 Barcode number not taken                              Reason discount not taken
                                 The invoice was processed and certified, and should have been paid on
                                 time. However, when EPA implemented its new financial system,
B2093905989            $134
                                 schedule issues occurred so that the discount could not be taken when
                                 the schedule reached the U.S. Department of the Treasury.
                                 When the invoice was processed, it was within the 20 days offered; but
B2093947859             615      when the invoice was actually paid by Treasury, the 20 days had expired
                                 and the discount was not taken.
                                 This vendor offered a discount if the invoice was paid in 10 days. EPA
B2094340727              15      took 9 days to process the invoice, but by the time Treasury paid the
                                 invoice the discount period had expired.
                                 Invoice was processed and certified in time, but when Treasury
                                 processed the payment the discount period had expired. Based on the
B2094236396             566
                                 date of payment, it appears there were issues getting the schedule to
                                 Treasury.
B2094045912              40      The discount had expired when the invoice was transmitted to Treasury.
    Total            $1,370
Source: OIG-generated table based on EPA data.




13-P-0175                                                                                             15
            The reason discounts were not taken was within EPA’s control. EPA was not able
            to take the discounts because of coding errors and delays in transmitting payment
            information to the Department of the Treasury. The transmission of data to
            Treasury is within EPA’s control, and when the transmission is not timely and
            discounts cannot be taken, they should be reported as improper payments. As
            stated in the 2010 presidential memorandum on improper payments, thorough
            identification of improper payments promotes accountability at federal agencies.
            OMB also encouraged agencies to identify the root causes of their improper
            payments and implement corrective actions that prevent future improper
            payments. EPA should be identifying and reporting discounts not taken as
            improper payments that result from errors within EPA’s control, in order to
            promote accountability and to serve as a basis for identifying issues that need to
            be corrected.

            Error in Reporting Discounts Not Taken

            EPA found during our audit that $4,149 of the $122,000 in discounts not taken
            were reported in error, as shown in table 5. For contracts, EPA included $77,693
            as part of the discounts not taken total. However, during the audit, EPA finance
            center staff determined that four invoices, totaling $4,149, should not have been
            included because EPA did take the appropriate discounts. When the programmers
            corrected financial management system coding problems and reports, the total
            discounts not taken were revised. The contracts report dated December 12, 2012,
            was adjusted to correct coding issues with the financial management system.

            Table 5: Contract invoices
             Barcode Number                     Amount
             B2093962722                           $470
             B2093957391                          1,203
             B2094316890                            804
             B2095327086                          1,672
                     Total                       $4,149
            Source: OIG-generated table based on EPA data.



Office of General Counsel Opinion
            OCFO sought an opinion from EPA’s Office of General Counsel (OGC)
            concerning whether IPERA required the reporting of “all” discounts not taken.
            OGC opined that the term “applicable discount” does not equate to “all
            discounts.” While the OGC opinion is helpful in demonstrating why EPA would
            not necessarily report all discounts not taken as improper payments, the opinion
            does not address whether the specific circumstances the Agency cited in
            responding to the OIG’s previous report would warrant not reporting those
            discounts not taken as improper payments. OGC suggests that “applicable
            discount” should be defined in light of OMB’s Prompt Payment Act regulation at
            5 CFR Part 1315, which provides in pertinent part that “[i]f an agency is offered a

13-P-0175                                                                                    16
            discount by a vendor, whether stipulated in the contract or offered on an invoice,
            an agency may take the discount if economically justified … but only after
            acceptance has occurred.” 5 CFR Part 1315.7(a). Thus OGC suggests that only if
            a discount is offered and economically justified is it then “applicable”; and thus if
            not taken, then it should be reported as an improper payment. We do not
            necessarily endorse this interpretation, and believe it prudent for the Agency to
            consult with OMB on its views on interpreting this term. However, if the Agency
            wishes to adopt that interpretation, then it should reevaluate the position it took
            when responding to the OIG report on the 2011 AFR.

Recommendations

            We recommend that the Chief Financial Officer:

               5. 	 Develop specific guidance to define “applicable discounts” for IPERA
                    reporting purposes.

               6. 	 Include any payment that does not account for credit for an applicable
                    discount as an improper payment in EPA’s FY 2013 AFR.

Agency Comments and OIG Evaluation
            EPA agreed with the recommendations. OCFO’s Research Triangle Park Finance
            Center will update existing Improper Payment Standard Operating Procedures to
            include specific guidance to define “applicable discounts” for IPERA reporting
            purposes. Also, the OCFO will include improper payments as defined in the
            Improper Payment Standard Operating Procedures in the EPA’s FY 2013 AFR.
            The OIG believes the Agency’s actions, when implemented, should address the
            recommendations.




13-P-0175                                                                                      17
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                          Status1         Action Official             Date      Amount      Amount

     1        5     Within 90 days prepare a report for the                  O         Chief Financial Officer      6/15/2013
                    Administrator to submit to Congress and include
                    the elements described in IPERA Section 3(c) in
                    the report.

     2       10     Require staff to use the PERs, in addition to the        O         Assistant Administrator,     11/15/2013
                    transaction testing worksheets, to identify improper                   Office of Water
                    payments.

     3       10     Submit SRF improper payment totals to OCFO               O         Assistant Administrator,      9/1/2013
                    earlier in the reporting cycle to allow OCFO the                       Office of Water
                    opportunity to perform quality checks on the data.

     4       13     Determine why the errors noted occurred,                 O        Assistant Administrator,      6/30/2013
                    implement actions to ensure accurate reporting in                Office of Administration and
                    the Integrated Grants Management System                           Resources Management
                    Compliance and Recipient Activity database, and
                    revise the OGD’s interim guidance for IPERA to
                    reflect these changes.

     5       17     Develop specific guidance to define “applicable          O         Chief Financial Officer      4/19/2013
                    discounts” for IPERA reporting purposes.

     6       17     Include any payment that does not account for            O         Chief Financial Officer      11/15/2013
                    credit for an applicable discount as an improper
                    payment in EPA’s FY 2013 AFR.




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0175                                                                                                                                          18
                                                                                      Appendix A

                    Agency Response to Draft Report
                                    (Received February 22, 2013)


MEMORANDUM

SUBJECT:	 Response to Office of Inspector General Draft Report/Project No. OA-FY13-0055
          “Corrective Action Plan Needed in Order to Fully Comply with Improper
          Payments Elimination and Recovery Act,” dated February 7, 2013

FROM: 	         Barbara J. Bennett    /s/ Original Signed By Maryann Froehlich for:
                Chief Financial Officer

TO: 	           Arthur A. Elkins, Jr.
                Inspector General

Thank you for the opportunity to respond to the issues and recommendations in the subject audit
report. Following is a summary of the U.S. Environmental Protection Agency’s overall position,
along with its position on each of the report recommendations.

AGENCY’S OVERALL POSITION
The agency concurs with all six recommendations and views the issue of non-compliance as a
technical interpretation of IPERA.

AGENCY’S RESPONSE TO REPORT RECOMMENDATIONS

Agreements
No. Recommendation                       High-Level Intended Corrective Action(s)         Estimated
                                                                                          Completion
                                                                                          by FY
 1      The Chief Financial Officer,     1.1 The Office of the Chief Financial Officer    6/15/2013
        within 90 days of the            will prepare a report for the Administrator to
        determination of non-            submit to Congress that includes the
        compliance, prepare a report     elements described in IPERA Section 3(c)
        for the Administrator to         within 90 days of the determination of non-
        submit to Congress that          compliance.
        includes the elements
        described in Improper
        Payment Elimination
        Recovery Act Section 3(c).
 2      The Assistant Administrator,     2.1 The EPA concurs with this                    11/15/2013
        Office of Water, require staff   recommendation. OW staff will use the            (ongoing)


13-P-0175                                                                                       19
     to use the Program Evaluation       PERs, in addition to the transaction testing
     Reports, in addition to the         worksheets, to identify improper payments
     transaction testing worksheets,     reflected in the final AFR.
     to identify improper
     payments.
 3   The AA of OW, submit State          3.1 The EPA concurs with this                     9/1/2013
     Revolving Fund improper             recommendation. OW will provide OCFO              (ongoing)
     payment totals to the Office of     with the improper payments information it
     the Chief Financial Officer         needs to report in the final AFR earlier in the
     earlier in the reporting cycle to   reporting cycle.
     allow OCFO the opportunity
     to perform quality checks on
     the data.
 4   The AA of Office of                 4.1 OGD agrees that some improper            2/7/2013
     Administration and Resources        payments were not accurately recorded in the (completed)
     Management, determine why           IGMS Grantee Compliance and Recipient
     the errors noted occurred,          Activity database and has determined why
     implement actions to ensure         these errors occurred.
     accurate reporting in the
     Integrated Grants                   4.2 OGD will revise IPERA guidance to         6/30/2013
     Management System                   implement corrective actions, as based on 4.1
     Compliance and Recipient            above.
     Activity database, and revise
     the Office of Grants and
     Debarment’s Interim
     Guidance for IPERA to reflect
     these changes.
 5   The CFO develop specific            5.1 OCFO’s Research Triangle Park-Finance         4/19/2013
     guidance to define “applicable      Center will update existing Improper
     discounts” for IPERA                Payment Standard Operating Procedures to
     reporting purposes.                 include specific guidance to define
                                         “applicable discounts” for IPERA reporting
                                         purposes.

 6   The CFO include any payment 6.1 OCFO will include improper payments                   11/15/2013
     that does not account for   as defined in 5.1 above in the EPA’s FY
     credit for an applicable    2013 AFR.
     discount as an improper
     payment in EPA’s FY 2013
     Agency Financial Report.




13-P-0175                                                                                         20
CONTACT INFORMATION

If you have any questions regarding this response, please contact Stefan Silzer, Director of the
Office of Financial Management on (202) 564-5389 or Andrew LeBlanc of the Program Costing
Staff on (202) 564-1761.

Attachment

cc: 	Craig Hooks
     Nancy Stoner
     Nanci Gelb
     Michael Shapiro
     Maryann Froehlich
     Joshua Baylson
     Stefan Silzer
     Jeanne Conklin
     Meshell Jones-Peeler
     Dale Miller
     John O’Connor
     Istanbul Yusuf
     Sandy Dickens
     Steven Erickson
     Andrew LeBlanc
     Sheila Platt
     Howard E. Rubin
     Sheila Frace
     Charles Job
     Howard Corcoran
     Bruce Binder
     Denise Polk
     Joseph Lucia
     Sandy Womack-Butler
     Marilyn Ramos
     Michael Mason
     Barbara Freggens
     Melissa Heist
     Richard Eyermann
     Janet Kasper
     Heriberto Ibarra
     Doug LaTessa
     Nicole Pilate
     Mary Anne Strasser




13-P-0175                                                                                     21
                                                                                 Appendix B

                                     Distribution
Office of the Administrator
Chief Financial Officer
Assistant Administrator, Office of Water
Assistant Administrator, Office of Administration and Resources Management
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Financial Management, Office of the Chief Financial Officer
Deputy Director, Office of Financial Management, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of the Chief Financial Officer
Audit Follow-Up Coordinator, Office of Water
Audit Follow-Up Coordinator, Office of Administration and Resources Management




13-P-0175                                                                                22
